U.S. Department of Agriculture
 Office of Inspector General
      Northeast Region
         Audit Report



   Rural Business Enterprise Grant
        Vivero Caimito Project
Puerto Rico Rural Development State Office
        San Juan, Puerto Rico




                              Report No.
                              34004-04-Hy
                              July 2000
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250
DATE:            July 11, 2000

REPLY TO
ATTN OF:     34004-04-Hy
             Vivero Caimito Project

SUBJECT:     Rural Business Enterprise Grant
             Puerto Rico Rural Development State Office

TO:          Jill Long Thompson
             Under Secretary
             Rural Development

ATTN:        Sherie Hinton Henry
             Director
             Financial Management Division


This report presents the results of our audit of the Rural Business Enterprise Grant to the
Vivero Caimito Project in San Juan, Puerto Rico. The April 18, and May 5, 2000,
responses to the official draft report are included as Exhibit C. Excerpts from the
responses and the Office of Inspector General’s position have been incorporated into the
Findings and Recommendations section of the report.

We have accepted your management decisions on Recommendations Nos. 6 and 11.
However, management decision has not yet been reached for the remaining
recommendations. The Findings and Recommendations section of the report includes a
description of the status of the management decision for each of these recommendations.

In accordance with Departmental Regulation 1720-1, please furnish a reply within     60
days describing the corrective action taken or planned and the timeframes for
implementation for those recommendations for which management decisions have not yet
been reached. Please note the regulation requires a management decision be reached on
all findings and recommendations within a maximum of 6 months from report issuance.
Follow your internal agency procedures in forwarding final action correspondence to the
Office of the Chief Financial Officer.

We appreciate the cooperation and assistance provided during the audit.


    /S/
JAMES R. EBBITT
Assistant Inspector General
 for Audit
                                     EXECUTIVE SUMMARY
                         RURAL BUSINESS ENTERPRISE GRANT
                              VIVERO CAIMITO PROJECT
                    PUERTO RICO RURAL DEVELOPMENT STATE OFFICE
                               SAN JUAN, PUERTO RICO

                                     AUDIT REPORT NO. 34004-04-Hy


                                                    T he Rural Business Enterprise Grant (RBEG)
                   PURPOSE                     program, one of several programs operated
                                               under the Rural Development mission area, is
                   designed to support the development of small and emerging private
                   business enterprises in rural areas. We conducted an audit of the RBEG
                   disbursed by the Puerto Rico Rural Development State office (SO) to Vivero
                   Caimito (the Grantee); a plant and tree nursery operated in the Caimito
                   barrio of the San Juan Municipio, in San Juan, Puerto Rico. The audit was
                   conducted in response to Hotline Complaints PS-0401-0894 and PS-3401-
                   0021 which expressed concern that the Grantee, a nonprofit corporation, had
                   received RBEG funding of $850,000 for which it was not eligible because the
                   Grantee's operation was not located in a rural area, as defined in Title 7,
                   Code of Federal Regulations (7 CFR) § 1942, Subpart G.

                   The determination of whether the operation's geographic location is in a rural
                   area is significant because RBEG funds can only be disbursed to grantees
                   located in rural areas. The SO officials are required to review the decennial
                   census data for the entire territory under their jurisdiction to identify that area
                   which meets the definition of rural area. Regulations 1 define rural and rural
                   area as that territory not within the outer boundary of any city having a
                   population of 50,000 or more, and its immediately adjacent urbanized and
                   urbanizing areas with a population density of more than 100 persons per
                   square mile. Regulations 1 define urban area as a city with a population of
                   50,000 or more, define urbanized area as an area immediately adjacent to
                   the urban area, and define urbanizing area as a community which is not now,
                   or within the foreseeable future not likely to be, clearly separate from, and
                   independent of an urban area and its immediately adjacent urbanized areas.
                   Regulations 1 further explain a community is considered "independent of"




 1
     7 CFR § 1942.304, effective January 1, 1994.



USDA-OIG-A/34004-04-Hy                                                                        Page i
           when its government, education, business, industry, and employment
           opportunities are not dependent on the city and its immediately adjacent
           urbanized area.

           To evaluate the allegations, we determined whether (1) the SO's
           methodology for classifying territory as rural areas to be eligible for RBEG
           grants in Puerto Rico, was in accordance with the RBEG regulations, (2) the
           SO properly performed and documented the site eligibility determination for
           this Grantee, and (3) the funds disbursed to the Grantee were in accordance
           with RBEG requirements.

                                        Our analysis of the SO's methodology used to
       RESULTS IN BRIEF                 classify areas as rural and, as such, be eligible
                                        for RBEG funding disclosed the methodology
           was flawed. SO officials classified 165.9 of 3,426.5 square miles in Puerto
           Rico as non-rural areas ineligible for RBEG funding. This occurred primarily
           because SO officials did not follow Rural Development regulations requiring
           that all urban, urbanized, and urbanizing areas be identified and excluded
           from areas eligible for RBEG funding. We analyzed census data; applied the
           Rural Development definitions of urban, urbanized, and urbanizing; and
           concluded that at least 9 separate areas containing 1,666 square miles,
           including the Caimito barrio, should have been excluded from the eligible
           funding area. As a result, the SO officials incorrectly determined the
           Grantee's project was eligible for RBEG funding of $850,000.

           Because the SO's methodology for identifying eligible rural areas was
           flawed, we expanded our review to determine whether RBEG funding was
           provided to other operations located in ineligible urban, urbanized, and
           urbanizing areas. During fiscal years (FY) 1996, 1997, and 1998, the SO
           approved 17 grants to 14 grantees totaling $3.5 million. Our review
           disclosed three other grants totaling $601,260 were disbursed to grantees
           not actually located in rural areas. Consequently, $1.4 of the $3.5 million in
           RBEG funding disbursed during the last 3 fiscal years, or 40 percent, has
           been spent on operations located in ineligible areas.

           We also believe that other Rural Development mission areas such as
           Business and Industry (B&I), Rural Housing (RH), and Rural Rental Housing
           (RRH) could be impacted because rural area classifications are also
           required for determining eligibility for funding. During FY 1998, B&I loan
           funding was $31 million, RH loan disbursements totaled $103.5 million, and
           RRH loan disbursements totaled $2.4 million in Puerto Rico. Therefore, we
           believe the potential effect of the misclassification of rural areas on U.S.
           Department of Agriculture (USDA) program payments within Puerto Rico
           could be significant.




USDA-OIG-A/34004-04-Hy                                                           Page ii
           Our review of the SO's actions to determine and document this Grantee was
           eligible for RBEG funding disclosed the SO records were incomplete and
           misleading. We found no records documenting the project's location on a
           map of eligible rural areas or evidence that Rural Development officials had
           visited the project location either prior to, or after, grant approval. At the time
           we initiated our audit, SO officials did not know that the Northern part of the
           Caimito barrio had been determined by the State engineer to be ineligible
           for RBEG funding and, as such, the specific location of the project within the
           Caimito barrio was critical. The SO officials we interviewed did not know
           where the project was located on an eligible area map. Further, once
           questions arose from the Rural Development National office (NO), and the
           USDA Office of the Inspector General (OIG), regarding the eligibility
           determination for this Grantee, the SO officials did not objectively reassess
           their prior eligibility determination. Rather, they attempted to use other
           agencies' comments to support the eligibility of the Grantee. Consequently,
           we concluded that the SO did not make a thorough analysis of all eligibility
           issues for this applicant.

           Our review of Rural Development controls over the Grantee's use of RBEG
           funds disclosed the SO officials did not ensure the funds were used only to
           pay allowable costs that were approved in the grant budgets. The SO
           officials did not identify that $2,400 was disbursed to pay costs not included
           in the budget, $30,150 was disbursed to pay costs not related to the project,
           $29,035 was disbursed to pay costs only partially related to the project,
           $19,774 was disbursed to pay costs not supported by receipts, $57,237 was
           disbursed to pay costs already paid under a general management services
           agreement, and $30,400 was disbursed to pay rent costs not allowable since
           the owner was a related-party to the project. As a result, we question
           disbursements totaling $168,996 from the $850,000 grant.

                                         We recommend the NO assist the SO in
    KEY RECOMMENDATIONS                 performing a rural area classification analysis
                                        for each Rural Development program operating
           in Puerto Rico; remove any territory from the rural area that is identified as
           urban, urbanized, or urbanizing; and cease disbursing Rural Development
           funding in any identified non-rural area. Also, procedures and/or guidance
           are needed to clearly define the terms municipio, barrio, city, zona urbana,
           urbanized, and urbanizing within Puerto Rico. Once the 2000 census data is
           available, the NO should assist the SO in performing another rural area
           classification. We also recommend that the NO determine whether the five
           RBEG grants totaling $1,451,260 made to grantees located in ineligible
           areas should be recovered.

           To strengthen SO operations, we recommend the NO provide training to the
           SO officials on how to perform and document individual project eligibility



USDA-OIG-A/34004-04-Hy                                                               Page iii
           determinations. In addition, procedures should be established to assist the
           SO in properly administering grant funds. We also recommend that the NO
           perform a follow up review to ensure RBEG requirements are met.

           We recommend the SO recover grant funds expended by the Grantee for
           unallowable costs of $89,787 and unsupported costs of $19,774. In addition,
           the SO should require the Grantee to properly allocate cited costs of $29,035
           between the benefiting programs and determine the amount of ineligible rent
           costs of $30,400 that can be justified as a depreciation or use allowance;
           and recover the excessive disbursements.

                                        In the April 18, and May 5, 2000, responses to
      AGENCY RESPONSE                   the draft report, the Rural Business-Cooperative
                                        Service (RBS) NO generally agreed with the key
           recommendations presented. The officials acknowledged the methodology
           used by the Puerto Rico SO was flawed and Grantee’s project was actually
           located in an ineligible area. The Puerto Rico SO will attempt to recover
           $850,000 in grant funds from the Grantee. The RBS NO officials also
           provided the following guidance to aide the Puerto Rico SO in re-evaluating
           its territory.
           For the purpose of Puerto Rico, any area identified by the Bureau of the
           Census as urban, which exceeds program population limits or, where
           applicable, its immediately adjacent urbanized and contiguously urbanizing
           area is to be considered non-rural. Within these urbanized and urbanizing
           areas, any area which is separated by open country, less densely settled
           areas or natural boundaries, such as forests and water, is considered rural.
           The term urban or “zona urbana” is to be synonymous with the Bureau of the
           Census term “place”, i.e., the dark gray area shown on its maps and all such
           areas which are contiguous will be considered a single unit for the purpose
           of determining population. Thus, once a unit is identified as having a
           population greater than 50,000 persons, the identification of urbanized and
           urbanizing areas must be made.

           Since the Puerto Rico SO has not re-evaluated its territory on the basis of the
           recently provided guidance, the eligibility of the other three grants totaling
           $601,260, has not been established. Further, because the RBS has
           determined the Vivero Caimito Project was not eligible for RBEG funding,
           other questioned disbursements will be dealt with only if a determination is
           made that the entire grant is not recoverable.

           We have incorporated excerpts of the RBS’s responses along with our
           position within the Findings and Recommendations section of the report. The
           responses, excluding attachments, are contained in exhibit C of the report.




USDA-OIG-A/34004-04-Hy                                                           Page iv
                                          TABLE OF CONTENTS


EXECUTIVE SUMMARY............................................................................................................i
   PURPOSE .................................................................................................................................i
   RESULTS IN BRIEF ................................................................................................................ii
   KEY RECOMMENDATIONS .................................................................................................iii
   AGENCY RESPONSE...........................................................................................................iv
INTRODUCTION.........................................................................................................................1
   BACKGROUND .......................................................................................................................1
   OBJECTIVES...........................................................................................................................3
   SCOPE .....................................................................................................................................3
   METHODOLOGY.....................................................................................................................4
FINDINGS AND RECOMMENDATIONS................................................................................6
   CHAPTER 1 .............................................................................................................................6
   RURAL AREA CLASSIFICATIONS NOT ACCORDING TO REGULATIONS AND
   RESULTED IN GRANTS MADE IN INELIGIBLE AREAS...................................................6
   RECOMMENDATION NO. 1................................................................................................ 10
   RECOMMENDATION NO. 2................................................................................................ 11
   RECOMMENDATION NO. 3................................................................................................ 12
   RECOMMENDATION NO. 4................................................................................................ 12
   CHAPTER 2 .......................................................................................................................... 14
   RURAL AREA ELIGIBILITY DETERMINATION
   DOCUMENTATION INADEQUATE.................................................................................... 14
   FINDING NO. 2 ...................................................................................................................... 14
   RECOMMENDATION NO. 5................................................................................................ 17
   RECOMMENDATION NO. 6................................................................................................ 17
   CHAPTER 3 .......................................................................................................................... 18
   GRANT FUNDS WERE USED FOR UNALLOWABLE
   AND UNSUPPORTED COSTS .......................................................................................... 18
   RECOMMENDATION NO. 7................................................................................................ 20
   RECOMMENDATION NO. 8................................................................................................ 21


USDA-OIG-A/34004-04-Hy                                                                                                               Page v
   RECOMMENDATION NO. 9................................................................................................ 21
   RECOMMENDATION NO. 10 ............................................................................................. 22
   RECOMMENDATION NO. 11 ............................................................................................. 22
   EXHIBIT A – SUMMARY OF MONETARY RESULTS...................................................... 23
   EXHIBIT B – LAND AREA RECLASSIFICATION............................................................. 24
   EXHIBIT C – AGENCY RESPONSES ............................................................................... 27
ABBREVIATIONS ................................................................................................................... 37




USDA-OIG-A/34004-04-Hy                                                                                                    Page vi
                             INTRODUCTION


                                       T he RBEG program provides grants to finance
         BACKGROUND                    and facilitate development of small and
                                       emerging private enterprises. The program
           regulations at 7 CFR § 1942 Subpart G, provide that RBEG funds must be
           awarded for projects located in rural areas. Grants are made from rural
           development funds under authority of the Consolidated Farm and Rural
           Development Act, as amended               (7 U.S.C. 1932). Grants may be
           made to public bodies and private non-profit corporations serving rural
           areas. According to 7 CFR § 1942.306, effective January 1, 1994, grant
           funds may be used to develop small businesses including, but not limited to
           the following: for acquisition and development of land; construction,
           conversion, enlargement, modernization, or repairs of buildings, plants,
           machinery, and equipment; technical assistance for private business
           enterprises; and for operating costs. The limitations on the use of grant
           funds are contained in       7 CFR § 1942.307, effective January 1, 1994.


           According to 7 CFR § 1942.304, effective January 1, 1994, rural and rural
           area is defined as all territory of a State or the Commonwealth of Puerto
           Rico that is not within the outer boundary of any city having a population of
           50,000, or more, and its immediately adjacent urbanized and urbanizing
           areas with a population density of more than 100 persons per square mile,
           according to the latest decennial census of the United States. This
           regulation also defines urbanized area as an area immediately adjacent to
           a city having a population of 50,000 or more, which for general social and
           economic purposes constitutes a single community and has a boundary
           contiguous with a city. In addition, this regulation defines urbanizing area
           as a community which is not now, or in the foreseeable future not likely to
           be, clearly separate from, and independent of a city with a population of
           50,000 or more and its immediately adjacent urbanized areas. This
           regulation explains that a community is "independent of" when its social
           and economic structure (government, education, employment opportunities,
           etc.) is not primarily dependent on the city and its immediately adjacent
           urbanized area. Thus, once an area with a population of 50,000 or over is
           identified, a review to determine where the population density declines to
           less than 100 persons per square mile must be performed to identify where
           the rural area begins.

           The U.S. Department of Commerce, Bureau of the Census, published the
           results of the 1990 decennial census taken in Puerto Rico in a book entitled
           1990 Census of Housing, General Housing Characteristics, Puerto Rico



USDA-OIG-A/34004-04-Hy                                                           Page 1
           (census book). This book identifies, both on maps and in charts, those
           geographic areas that are urbanized. Within each urbanized area, the
           maps identify, by shading, the components of the entire area. The
           urbanized area on the map that is categorized as urban with a population of
           50,000 or more is shaded dark gray. The area on the map that is
           categorized urbanized and which is immediately adjacent to the urban area
           is shaded light gray. The remaining unshaded areas are not classified by
           the Bureau of the Census and the Bureau of the Census does not use the
           Rural Development term "urbanizing."

           The census book is written in English and Spanish but the population data
           uses Spanish terms to categorize the areas. Following are the terms and
           their English meanings.

           Area Urbanizadas        - Urbanized Area
           Zona Urbana             - Urban Area
           Otra Area               - Other Area, but part of the Urbanized Area
           Lugar            -      Place, and Urban area
           Municipio               - Municipality, but more similar to a
                                      county or township as there is no incorporated
                                      city in Puerto Rico
           Barrio                  - Ward within a township or a
                                      subtownship

           This census book also lists the population and square miles of each
           municipio, barrio, area urbanizadas, zona urbana, and otra area within
           Puerto Rico. The Bureau of the Census separated the island into        78
           municipios. Each municipio is separated into barrios. Within some
           barrios, the Bureau of the Census has identified that one part the area is
           urban, another part is urbanized, and another part is not categorized.

           According to 7 CFR § 1942.305, effective January 1, 1994, the State
           Director is to determine whether the areas are urbanized or urbanizing and
           determine the population density per square mile. All such density
           determinations are to be made on the basis of minor civil division or
           census county division, as used by the Bureau of the Census. The SO
           performed the rural area classification in 1994 after receiving the 1990
           decennial census data and will not update the classification until the results
           of the 2000 decennial census is received. The Bureau of the Census
           published maps that show the areas classified as urban and urbanized and
           charts that identify population density information by barrio and, in some
           cases, subbarrio. Therefore, the SO staff needed only to evaluate those
           barrios surrounding the urban and urbanized areas identified by the Bureau
           of the Census, to determine the urbanizing areas.




USDA-OIG-A/34004-04-Hy                                                           Page 2
           According to the 1990 census data, Puerto Rico contains 3,426.5 square
           miles of land area and has a population of 3,522,037. The island is divided
           into 78 municipios which contain 899 barrios. For example, the San Juan
           municipio contains 18 barrios. Within the San Juan municipio, the map
           shows that 15 barrios are urban; areas within 2 barrios are, either urban,
           urbanized, or not categorized, and areas within the other barrio are either
           urbanized or not categorized.

           This audit was performed in response to Hotline Complaints OIG received
           in August and September 1998 which alleged that Centro Sor Isolina Ferre,
           a nonprofit corporation which is the parent corporation of Vivero Caimito
           which is the Grantee; received RBEG funds to operate a tree and plant
           nursery business not physically located in a rural area.

           In July 1998, the Rural Development's NO received a similar anonymous
           complaint and requested that the Puerto Rico SO reevaluate the Grantee's
           eligibility. On July 29, 1998, the Puerto Rico SO responded that their
           reassessment concluded the Grantee's operation was located in a rural
           area and, as such, was eligible for the RBEG.

           Regulations governing the management of grant funds are contained in 7
           CFR § 3015, effective January 1, 1994. These regulations require that
           Office of Management and Budget (OMB) Circular A-122, Cost Principles
           for Nonprofit Organizations, be used to determine the allowability of costs.

                                       T he audit objectives were to determine
          OBJECTIVES                   whether (1) the SO's methodology for
                                       classifying areas as rural to be eligible for
           RBEG grants in Puerto Rico was in accordance with the regulation, (2) the
           SO properly performed and documented the site location eligibility
           determination for this Grantee, and (3) the funds disbursed to the Grantee
           were used in accordance with RBEG requirements.

                                       Audit work was performed at the Rural
            SCOPE                      Development SO located in Hato Rey, Puerto
                                       Rico. We also made site visits to the Grantee's
           project located in the barrio of Caimito in the San Juan municipio, San
           Juan, Puerto Rico. Our review of the RBEG and B&I rural area
           classification process covered the most recent classification which was
           performed in November 1994. Our review of project eligibility records and
           disbursements covered the period May 1996 through February 1999.

           The SO approved two grants totaling $850,000 to the Grantee. The first
           grant, approved in May 1996, provided funding primarily to create the



USDA-OIG-A/34004-04-Hy                                                          Page 3
           necessary infrastructure and to train the personnel. The second grant,
           approved in January 1998, provided funding to establish ten satellite
           producers. As of February 24, 1999, grant funding of $833,904 had been
           disbursed to the project. On that date, a balance of $16,096 had not been
           disbursed from the second grant. We reviewed documents available to
           support the 19 separate disbursements totaling $833,904 made by the SO
           to the project for allowability of the costs reported.

           The audit was conducted in accordance with generally accepted
           government auditing standards. Accordingly, the audit included such tests
           of program and accounting records as considered necessary to meet the
           audit objectives.

                                        T o accomplish the audit objectives and
        METHODOLOGY                      evaluate whether the methodology used by SO
                                         officials to identify eligible rural areas was in
           compliance with program requirements, we: (1) Interviewed the SO officials
           who performed the rural area classification review, (2) visited the project
           site, (3) interviewed various SO officials, including the State director, to
           determine how they performed project eligibility determinations and their
           understanding of the Rural Development classification process and the
           Rural Development definition of rural area, (4) obtained and reviewed the
           source documents the SO officials used in doing the rural area
           classifications, (5) obtained from the Bureau of the Census book additional
           data of land areas and population for the             9 urbanized areas and 41
           municipios identified by the Bureau of the Census as having a population of
           50,000 or over, (6) reviewed the population density of all 491 barrios
           located in the 41 municipios to identify those barrios with a population of
           over 100 persons per square mile, (7) located on the eligibility area maps
           the location of the Grantee's project and the other 14 projects that received
           RBEG funding during FYs 1996, 1997, and 1998, and (8) obtained
           urbanized area maps for the Municipios of San Juan, Mayaguez, Ponce,
           and Caguas, directly from the Bureau of the Census. We also discussed
           the rural area classification process and applicable Rural Development
           regulations with Rural Development NO officials. We interviewed the
           former Office of the General Counsel (OGC) attorney who reviewed various
           project legal documents. We also interviewed an official of the Government
           of Puerto Rico's Planning Board who, during the audit, responded in writing
           to the SO regarding their question of whether the project site was urban or
           rural.

           To test the adequacy of controls used by SO in disbursing funds to the
           Grantee, we (1) obtained project files, (2) interviewed SO officials to
           become familiar with the review process, (3) obtained and reviewed grant
           approval and budget documents, (4) obtained and reviewed fiscal reports




USDA-OIG-A/34004-04-Hy                                                            Page 4
           of expenses and project progress reports, and (5) evaluated supporting
           documents such as contracts, invoices, and payrolls for each item of cost
           reviewed.




USDA-OIG-A/34004-04-Hy                                                       Page 5
                     FINDINGS AND RECOMMENDATIONS


                             RURAL AREA CLASSIFICATIONS NOT ACCORDING
 CHAPTER 1                   TO REGULATIONS AND RESULTED IN GRANTS
                             MADE IN INELIGIBLE AREAS

                                                          Our analysis of the SO's methodology for
                FINDING NO. 1                       classifying geographic areas as rural and, as
                                                    such, being eligible for RBEG funding
                                                    disclosed the methodology was flawed. The
                    SO classified only 165.9 of 3,426.5 square miles in Puerto Rico as non-
                    rural areas ineligible for RBEG funding. This occurred because the SO
                    officials failed to follow pertinent RBEG regulations. We analyzed census
                    data; applied the Rural Development definitions of urban, urbanized, and
                    urbanizing; and concluded that at least 9 areas containing 1,666.4 square
                    miles, including the Caimito barrio, should have been excluded from the
                    eligible funding area. As a result, the SO officials incorrectly determined
                    the Grantee project was eligible for RBEG funding of $850,000. Further,
                    we found that this rural area misclassification caused SO officials to
                    incorrectly determine three other projects eligible for RBEG funding totaling
                    $601,260 within the last 3 fiscal years. Moreover, because rural area
                    classifications are made for eligibility determinations in other Rural
                    Development programs, we believe other ineligible USDA program
                    payments may have occurred.

                    Initially, the SO did not develop a working definition of "city" to conform with
                    the Spanish terminology used by the Bureau of the Census to identify
                    places within Puerto Rico as a starting point in the classification process.
                    Rather than use the census data that clearly identified the urban and
                    urbanized areas within Puerto Rico, the SO staff classified 8 areas with a
                    total of 165.9 square miles as non-rural based on their perception of the
                    meaning of "urban." The SO also failed to apply the Rural Development
                    definitions of urbanized and urbanizing to the adjacent areas surrounding
                    those seven urban areas identified to determine whether these adjacent
                    areas were also not eligible for RBEG funding.

                    According to regulations 2, Rural Development officials were to identify
                    those areas that are urban, urbanized, and urbanizing according to census
                    data. These regulations define urban area as a city with a population of

  2
      7 CFR § 1942.304 and .305, effective January 1, 1994.



USDA-OIG-A/34004-04-Hy                                                                      Page 6
           50,000 or more, urbanized area as an area immediately adjacent to the
           urban area (with a population density of more than 100 persons per square
           mile), and urbanizing area as a community (with a population density of
           more than 100 persons per square mile) which is not now, or not likely to
           be, clearly separate from, and independent of an urban area and its
           immediately adjacent urbanized areas.

           We interviewed SO officials and reviewed their documentation to
           determine how Rural Development officials classified only 165.9 of the
           3,426.5 square miles of land area in Puerto Rico as not eligible for RBEG
           funding. The SO used the following methodology to designate rural areas
           within Puerto Rico.

           •   On November 9, 1994, the State Director assigned the responsibility for
               classifying rural areas for the Business and Industry loan program and
               the RBEG program to the State engineer. On that same date, the
               engineer completed the rural area classifications for a presentation to
               potential borrowers interested in the Business and Industry loan
               program.

           •   The engineer obtained the book entitled 1990 Census of Housing,
               General Housing Characteristics, Puerto Rico published by the Bureau
               of the Census. He then located the map section entitled Areas
               Metropolitanas, Municipios, Y Lugars Seleccionados; identified seven
               places (lugares) with a population of over 50,000, and concluded that
               the municipios in which the places were located contained some non-
               rural areas. He also determined that the remaining 71 municipios were
               100 percent rural.

           •   The engineer then reviewed the seven Bureau of the Census Urbanized
               Area municipio maps to determine whether any land area within the
               municipio's geographic boundary was rural. The engineer decided that
               any dark gray shaded area on the map was non-rural and that all light
               gray shaded and unshaded areas were rural. He also concluded that
               the Catano Municipio, which is adjacent to the San Juan Municipio, was
               also urban.

           Our analysis of the Rural Development regulations and the 1990 Census of
           Housing, General Housing Characteristics, Puerto Rico and the 1990
           Census of Population and Housing, Supplementary Reports, Urbanized
           Areas of the United States and Puerto Rico disclosed flaws in the
           engineer's methodology as follows.

           •   The engineer did not apply the Rural Development definitions of urban,
               urbanized, and urbanizing in his classification process. He only




USDA-OIG-A/34004-04-Hy                                                         Page 7
                         selected some of the areas identified as urbanized by the Bureau of the
                         Census. He told us he was not fully familiar with RBEG requirements at
                         7 CFR, § 1942.304 and .305 and his classification was not supervised
                         by SO management officials. He explained he basically applied his
                         perception of what a rural area was. We found no documentation to
                         show that his analysis was reviewed by SO management. Further, SO
                         personnel now in those management positions told us they did not
                         believe anyone validated his analysis.

                    •    The engineer's use of the map section entitled Areas Metropolitanas,
                         Municipios, Y Lugars Seleccionados was not appropriate. This map's
                         identification of place (lugar) with a population of 50,000 or more does
                         not identify a city or town including its urban, urbanized, and urbanizing
                         areas. The Bureau of the Census definition of place explains that it has
                         no legal status and may only be the governmental center of a municipio
                         or town. In practice, place may be part of a town with a total population
                         of 50,000 or more. For example, the map used by the engineer shows
                         Arecibo is a place designated as having a population between 25,000
                         and 49,999. However, other census data shows that the urbanized
                         area of Arecibo has a population of 51,578 persons living in a 16.2
                         square mile area (about 4 miles by 4 miles), with a population density
                         of 3,181 persons per square mile.              Since Rural Development
                         regulations 3 classify cities with a population of 50,000 or more as urban
                         areas, Arecibo is not rural. Therefore, the engineer's use of place did
                         not accurately identify urban, urbanized, and urbanizing areas as
                         defined by Rural Development and the Bureau of the Census. The
                         maps which should have been used as a starting point in the
                         classification process and which were also provided in the Bureau of
                         the Census book, were the Urbanized Areas maps. The Urbanized
                         Area maps, which were on the following four pages of the book the
                         engineer had used show, by shading, the urban and urbanizing areas.
                         The census data also shows the population density of the adjacent
                         areas.

                    •    The engineer's analysis of the seven municipios he identified as having
                         a population of 50,000 or more did identify the urban areas within the
                         seven municipios. However, he failed to separate the non-rural
                         urbanized and urbanizing areas from the rural areas. This occurred
                         because the engineer did not understand the meaning of the map
                         shading and the Rural Development definitions. The municipio maps
                         he used presented the two components of each urbanized area to be
                         (1) place (urban area) highlighted in dark gray and (2) other area
                         (urbanized area) highlighted in light gray. However, his analysis
                         classified only place (urban area) as non-rural. His analysis did not
                         consider that the other area identified by the Bureau of the Census as
  3
      7 CFR § 1942.304 and .305, effective January 1, 1994.



USDA-OIG-A/34004-04-Hy                                                                      Page 8
               another component of the urbanized area was also non-rural. Further,
               he did not analyze the population of the barrios adjacent to the
               urbanized areas to determine whether these barrios met the definition
               of urbanizing and, as such, also be considered non-rural.

           We analyzed the 1990 Bureau of the Census data and found the records
           clearly identified nine urbanized areas that contained a population of
           50,000 or more. The Census data showed that the 41 municipios
           contained some urban and urbanized areas. These 41 municipios contain
           1,771 of the 3,426 square miles of land area or 52 percent of the total
           square miles in Puerto Rico. We analyzed the urbanized area table and
           found that the Bureau of the Census classified a total of 492 square miles
           of land area as urban or urbanized. We then analyzed the Bureau of the
           Census population data for adjacent barrios within these nine areas that
           were not identified as urban or urbanized by the Bureau of the Census. We
           found that an additional 1,174 square miles of land area met the Rural
           Development definition of urbanizing because the land was both adjacent
           to an urbanized area and had a population density of at least 100 persons
           per square mile. This analysis identified that 105 square miles of land area
           had a population density of less than 100 persons per square mile.
           However, much of this land is uninhabitable ocean shore, lowland, or hills.
           In total, we identified that these nine areas contain 1,666 square miles of
           land area that is not rural (see exhibit B). As a result, the SO overstated the
           number of square miles eligible for RBEG funding by at least 1,500 square
           miles.

           After identifying that at least 1,666 square miles of land area should have
           been classified as not eligible for RBEG funding, we reviewed RBEG
           records to determine how many grants had been disbursed to projects
           operating in ineligible areas. On January 26, 1999, SO officials provided
           us a list showing 17 grants totaling $3,542,920 had been awarded to      14
           projects during the last 3 fiscal years (FY 1996 through FY 1998). Five
           grants totaling $1,451,260 were awarded to four projects located in
           ineligible areas as follows.

              Project                                  Location                    Grant Amount

              Vivero Caimito                  Caimito, San Juan Urban Area             $500,000

              P.E.C.E.S.                      Humacao, Humacao Urban Area              $200,000
              Empresas A.P.A.R.I.             Cidra, Caguas Urban Area                 $150,000
              Cooperativa Ricamir             Vega Baja, Vega Baja-Manati Urban Area   $251,260
              Vivero Caimito                  Caimito, San Juan Urban Area             $350,000



           We found material noncompliance with RBEG program eligibility
           requirements for about $1.4 million of the $3.5 million in grant funds
           awarded during the last 3 fiscal years. Since this rural area classification
           has also been used for the Business and Industry loan program with funding

USDA-OIG-A/34004-04-Hy                                                                    Page 9
           of $31 million during FY 1998, the potential for ineligible program payments
           exists. Further, rural area classifications were performed for the RH and
           RRH programs and, during FY 1998, loan disbursements of $105.9 million
           occurred. Therefore, we believe the potential effect of the misclassification
           of rural areas within Puerto Rico could be significant.


    RECOMMENDATION NO. 1



           Assist the SO in performing a rural area classification analysis for each
           Rural Development program operating in Puerto Rico; remove any area
           from the rural area classification that is identified as urban, urbanized, or
           urbanizing; and cease disbursing Rural Development funding in any
           identified non-rural area.

           RBS Response

           The RBS NO letter dated May 2, 2000, provided guidance for the Puerto
           Rico SO to follow regarding its programs and the RBS requested the Puerto
           Rico SO to re-evaluate the territory to properly determine rural areas within
           Puerto Rico.

           OIG Position

           The guidance provided by the RBS NO is the beginning of the process for re-
           evaluating the territory for RBS programs. However, we recommended the
           RBS NO assist in the classification process and cease disbursing funding in
           non-rural areas. Further, our recommendation addressed all Rural
           Development programs operating in Puerto Rico.

           To reach management decision, other Rural Development agencies need to
           assist the Puerto Rico SO in performing a rural area classification analysis.
           Also, the RBS needs to actively participate with the Puerto Rico SO in
           performing the re-evaluation of its territory for RBS programs. Targeted
           completion dates are needed for completion of the classification analysis for
           Rural       Development         programs          in     Puerto         Rico.




USDA-OIG-A/34004-04-Hy                                                         Page 10
         RECOMMENDATION NO. 2



                      Develop procedures and/or guidelines that would clearly define terms
                      including municipio, barrio, city, zona urbana, urbanized, and urbanizing.

                      RBS Response

                      The RBS NO guidance stated that for the purpose of Puerto Rico, any area
                      identified by the Bureau of the Census as urban, which exceeds program
                      population limits or, where applicable, its immediately adjacent urbanized
                      and contiguously urbanizing area is to be considered non-rural. Within
                      these urbanized and urbanizing areas, any area which is separated by open
                      country, less densely settled areas, or natural boundaries, such as forests
                      and water, is considered rural. Further, the term urban or “zona urbana” is to
                      be synonymous with the U.S. Census Bureau term “place,” i.e., the dark gray
                      areas shown on its maps, and all such areas which are contiguous will be
                      considered a single unit for the purpose of determining population. Thus,
                      once an area is identified as having a population greater than 50,000
                      persons, the identification of surrounding urbanized areas and urbanizing
                      areas must be made.

                      OIG Position

                      Most of the guidance provided by the RBS met the intent of our
                      recommendation. However, the guideline for urbanizing needs further
                      clarification. According to regulations 4, for an urbanizing area (population
                      greater than 100 persons per square mile) to be considered rural, it must be
                      determined that the area is now, or in the future, likely to be clearly separate
                      from and independent of the urban and urbanized area. The guidance
                      provided only explains how an urbanizing area can be separate from an
                      urban area. The guidance omits the regulatory caveat that the area must
                      also be determined to be “independent of” the urban and urbanized area.
                      The regulations 4 explain that to be “independent of,” the area’s social and
                      economic structure, e.g., government, education, health, and recreational
                      facilities; and tax base, business, industry, and employment opportunities
                      are not primarily dependent on the urban and urbanized area.

                      We believe this determination of “independent of” is a key to the
                      classification process in Puerto Rico. Most areas within each Municipio do
                      not appear to meet this “independent of” definition as government,
                      business, industry, tax base, and employment opportunities are identified on
                      a Municipio basis. Therefore, to reach management decision, RBS needs
                      to clarify the guidelines for identifying urbanizing areas by directing that
                      these areas must also be determined to be “independent of,” the urban or
4
    7 CFR § 1942.304, effective January 1, 1994.

USDA-OIG-A/34004-04-Hy                                                                      Page 11
           urbanized area to be considered rural and provide a date when the
           guidelines will be applied.


    RECOMMENDATION NO. 3



           Assist the SO in completing its review of the 2000 census data and its
           classification analysis of eligible rural areas.

           RBS Response

           The RBS agrees to implement this recommendation as soon as the data is
           available.

           OIG Position

           Our recommendation addressed all Rural Development programs operating
           in Puerto Rico. Therefore, to reach management decision, the Rural
           Development agencies need to agree to implement Recommendation No. 3,
           and provide a targeted completion date for the classification analysis.


    RECOMMENDATION NO. 4



           Determine whether the five RBEG grants totaling $1,451,260 should be
           recovered.

           RBS Response

           The RBS agrees that the $850,000 in grants to the Vivero Caimito Project
           was unauthorized assistance and the grants will be serviced under 7 CFR, §
           1951, subpart O, Unauthorized Assistance. The RBS NO concluded the
           other three grants totaling $601,260, were made in eligible areas. However,
           on the basis of their response, the Puerto Rico SO has not completed its re-
           evaluation of the territory within Puerto Rico to confirm the NO’s initial
           conclusion.




USDA-OIG-A/34004-04-Hy                                                        Page 12
           OIG Position

           To reach management decision, the RBS NO needs to implement
           Recommendations Nos. 1 and 2, as presented, and then begin servicing all
           unauthorized assistance identified in accordance with 7 CFR 1951, subpart 0.




USDA-OIG-A/34004-04-Hy                                                      Page 13
                             RURAL AREA ELIGIBILITY DETERMINATION
 CHAPTER 2
                             DOCUMENTATION INADEQUATE


                                                   T he SO's records documenting that the
               FINDING NO. 2                     Grantee project was located in a rural area
                                                 were incomplete and misleading.            This
                    occurred because the officials did not follow applicable regulations.
                    Further, the SO officials did not acknowledge the lack of eligibility
                    documentation when questioned by both Rural Development NO and OIG
                    officials. Without adequate documentation in the grant docket, the SO
                    could not support that the project was located in an area classified as rural
                    and eligible for RBEG funding of $850,000. Our review disclosed
                    significant problems with the SO's classification methodology (see Finding
                    No. 1). We concluded that the SO did not make a thorough analysis of all
                    eligibility issues for this Grantee and, based upon Finding No. 1, the
                    Grantee was not eligible for the RBEG funding of $850,000.

                    According to Rural Development regulations 5, support documentation
                    necessary to make an eligibility determination shall be forwarded to the
                    State director for approval.

                    In mid-1998, the Rural Development NO requested that the SO follow up on
                    allegations that the Grantee project was not eligible for the grants because
                    it was not located in a rural area. On July 29, 1998, the SO officials
                    responded to the NO. They stated that Rural Development of Puerto Rico
                    makes a thorough analysis of all eligibility issues for each applicant of any
                    program. They stated that the ward (barrio) where the project is located
                    had a population of 19,413 according to the 1990 Census data and, as
                    such, did not exceed the population eligibility limit of 50,000. The SO
                    officials also explained that they had requested assistance from the OGC in
                    determining applicant eligibility. They cited the following quotes from the
                    OGC response as support for their belief that the location was in an eligible
                    rural area. The OGC response stated, in part, "The proposed project is
                    located in the community of Caimito in the City of San Juan"...."There is no
                    doubt that this is a Rural Area."

                    We analyzed SO records; the SO's response to the NO request for support
                    that the Grantee project was in a rural area; census data; and interviewed
                    Rural Development, former OGC, and Puerto Rico Planning




  5
      7 CFR § 1942.2, effective January 1, 1994.



USDA-OIG-A/34004-04-Hy                                                                  Page 14
           Board officials.   We noted the following problems with the SO's
           documentation to support the eligibility decision for this grant.

           •   We found no records documenting the project's location on a map of
               eligible rural areas or evidence that SO officials had visited the project
               location either prior to, or after, grant approval. At the time we initiated
               our audit, SO officials did not know that the Northern part of the Caimito
               barrio had been determined by the State engineer to be ineligible for
               RBEG funding and, as such, the specific location of the project within
               the Caimito barrio was critical. SO officials we interviewed did not
               know where the project was located on an eligible area map. Even
               though no documentation was available to show the project's location,
               current Rural Development officials, including the State director,
               assured us that the Caimito barrio was a rural area.

           •   The SO officials told their NO in a July 29, 1998, memorandum that the
               ward (barrio) where the project is located had a population of 19,413
               according to the 1990 Census data and, as such, did not exceed the
               population eligibility limit of 50,000. However, SO officials did not
               disclose that the part of the Caimito barrio where the project is located
               abutted the adjacent ineligible area of San Juan with a population of
               over 400,000. Further, SO officials did not disclose that the population
               density for the 5.4 square mile Caimito barrio was 3,595 persons per
               square mile. We believe that, had these two facts had been disclosed
               to the NO, additional questions would have been raised about the
               area's eligibility. We could not conclude whether the lack of disclosure
               was intentional or arose due to SO officials lack of knowledge of the
               actual location of the project.

           •   The SO officials initially told us that the Caimito barrio of the San Juan
               Municipio was an eligible area because the barrio had a population of
               19,413 and, as such, did not exceed the population eligibility limit of
               50,000. Later, they acknowledged that the population of a barrio, as a
               stand-alone fact, did not identify whether the area was rural or urban
               and that additional analysis should be warranted to make that
               determination.

           •   A key document SO officials provided to their NO and to OIG to support
               that the project was in a rural area was a letter dated May 23, 1996,
               from OGC. The letter stated, in part... "The proposed project is located
               in the community of Caimito in the City of San Juan"... "There is no
               doubt that this is a Rural Area." This letter was OGC's response to the
               State Director's May 14, 1996, request for an opinion on the applicant's
               legal existence and authority to operate a nursery in Caimito. The OGC
               letter cites the records reviewed to render the opinion on the applicant's
               legal existence and authority to operate the nursery. The records
               reviewed by OGC do not include any census data or maps which would
               be required to determine whether the project is located in a rural area.
USDA-OIG-A/34004-04-Hy                                                            Page 15
                         Moreover, had the SO disclosed to the NO that the City of San Juan
                         has a population of over 400,000, the NO officials may have noted that
                         the two OGC statements contradicted each other; i.e., how can a rural
                         area have a population of over 400,000.             The SO officials
                         acknowledged to us they had relied on the OGC statement that the
                         project was in a rural area to determine project eligibility. However,
                         Rural Development, not OGC, is responsible for RBEG eligibility
                         determinations.

                    •    We interviewed the individual who signed the May 23, 1996, letter from
                         OGC. He explained this letter was part of his normal responsibilities as
                         he did a legal review of each RBEG grantee's authority to do business.
                          He told us he did not believe OGC had been provided the Rural
                         Development eligible area maps. He said he was not aware of Rural
                         Development's specific definition of rural and probably based his
                         comment on general information provided by Rural Development and
                         his perception of rural. He said he had not visited the project site.

                    •    During the audit, SO officials obtained a letter from the Government of
                         Puerto Rico's Planning Board dated December 29, 1998, to support
                         their belief that the Caimito barrio was a rural area. This letter stated
                         that the location of the project is outside of the "urban zone" of the San
                         Juan municipio. Since the letter did not define "urban zone," we
                         contacted the Planning Board to clarify the statement. We were told
                         that "urban zone" i.e., zona urbana in Spanish, came from the Bureau of
                         the Census maps and was one of two parts of the urbanized area. The
                         Planning Board official told us the project was located in the "otra area"
                         or the other part of the urbanized area according the Bureau of the
                         Census map. We applied the Rural Development definition of rural6
                         which excludes urban and urbanized areas, and concluded the Grantee
                         is not located in a rural area.

                    In summary, the SO did not initially clearly and accurately document the rural
                    area eligibility for this Grantee's project. Further, once questions arose
                    from their NO and OIG regarding the eligibility determination for this
                    Grantee, the SO officials did not objectively reassess their prior eligibility
                    determination. Rather, they attempted to use other agencies' comments to
                    support the eligibility of the Grantee. Consequently, we concluded that the
                    SO did not make a thorough analysis of all eligibility issues for this
                    applicant.




  6
      7 CFR § 1942.305, effective January 1, 1994.



USDA-OIG-A/34004-04-Hy                                                                    Page 16
    RECOMMENDATION NO. 5



           Provide training to SO officials on how to perform and document individual
           RBEG project eligibility determinations.

           RBS Response

           There has been nearly a 100 percent turnover in the Puerto Rico RBS staff
           since the cited grants were made. The current SO staff is knowledgeable in
           making determinations concerning rural area eligibility under the RBEG
           program.

           OIG Position

           Since the RBS NO has requested the Puerto Rico SO to re-evaluate its rural
           area designations on the basis of the guidance provided in
           Recommendation No. 2, we believe that the RBS NO does need to provide
           the additional training recommended. Therefore, our recommendation
           remains as presented.


    RECOMMENDATION NO. 6



           Perform a follow up review after the training is provided to determine
           whether the RBEG eligibility requirements are being met.

           RBS Response

           Post reviews will be conducted in the RBS NO on each RBEG made since
           August 1999 through the end of the FY 2000. The officials stated the reviews
           will be completed by December 31, 2000, and the RBS will provide further
           guidance, training, assistance, and followup as needed.

           OIG Position

           On the basis of this response, we have reached management decision.




USDA-OIG-A/34004-04-Hy                                                        Page 17
                            GRANT FUNDS WERE USED FOR UNALLOWABLE
 CHAPTER 3                  AND UNSUPPORTED COSTS

                                                     T he SO's grant management was not effective
                FINDING NO. 3                      in ensuring the grant funds disbursed were
                                                   used for eligible costs approved in the grant
                                                   budgets. We determined the SO reviews
                    performed before funds were disbursed to the Grantee did not identify that
                    $2,400 was disbursed to pay costs not included in the budget, $30,150
                    was disbursed to pay costs not related to the project, $29,035 was
                    disbursed to pay costs only partially related to the project, $19,774 was
                    disbursed for costs not supported by receipts, $57,237 was disbursed to
                    pay costs already paid under a general management services agreement,
                    and $30,400 was disbursed to pay rent costs not allowable since the owner
                    was a related party to the project. The SO officials attributed these
                    deficiencies to their reorganization, and staff reductions, which impaired
                    their ability to effectively manage grant funds. As a result, we question the
                    authorization of disbursements to the Grantee totaling $168,996.

                    According to regulations 7, OMB Circular A-122 shall be used in
                    determining the allowable costs of activities conducted by nonprofit
                    corporations. According to OMB Circular A-122, Cost Principles for
                    Nonprofit Organization, Attachment A, General Principles, to be allowable,
                    the costs shall be scrutinized to determine if the amount does not exceed
                    the amount that would be incurred by a prudent person under same
                    circumstances and be adequately documented.

                    The SO approved two grants totaling $850,000 to the Grantee. The first
                    grant, approved in May 1996, provided funding primarily to create the
                    necessary infrastructure and to train the personnel. The second, approved
                    in January 1998, provided funding to establish ten satellite producers. As
                    of February 24, 1999, $833,904 had been disbursed for the project. On
                    that date, a balance of $16,096 was available from the second grant. We
                    reviewed the disbursements and found the following.

                    •    Disbursements Nos. 2 and 10 included funding for unallowable costs
                         totaling $2,400; $900 and $1,500, respectively, for activities not
                         approved in the budget. The $900 payment was for preparation of the
                         grant application and the $1,500 payment was for a property appraisal.




  7
      7 CFR § 3015.193, effective January 1, 1994.



USDA-OIG-A/34004-04-Hy                                                                   Page 18
           •   Disbursements Nos. 1 and 3 included funding for unallowable costs
               totaling $30,150; $150 and $30,000, respectively, for costs not related
               to the project. The $150 payment was for a salary advance paid to a
               non-project employee and the $30,000 payment was to fund a revolving
               advance to producers. We found no further documentation after the
               $30,000 was advanced to show that the project actually used the
               funding for project purposes.

           •   Disbursements Nos. 4, 7, and 9 included funding for questioned costs
               totaling $29,035; $1,915, $10,000, and $17,120, respectively, as the
               costs incurred were not properly allocated between the RBEG grant
               and other non-grant related activities. The $1,915 disbursement was
               for professional services rendered by the parent corporation, which
               were not 100 percent related to the RBEG grant; and the $10,000 and
               $17,120 disbursements were made to purchase vans which were used
               for the RBEG grant, as well as other purposes.

               Our review also disclosed unsupported costs of $19,774 as follows:

           •   Disbursements Nos. 1 and 2 included funding for questioned costs
               totaling $642; $580 and $62, respectively, for material costs and petty
               cash reimbursements that were not supported by receipts.

           •   Disbursements Nos. 9, 10, and 11 included funding for questioned
               costs totaling $17,888; $8,944; $4,472; and $4,472; respectively, for
               costs of rental equipment that were not supported by receipts.

           •   Disbursement No. 11 also included funding for questioned costs of
               $1,244 for payroll costs that were not supported by time and
               attendance or other records.

           We also performed an indepth review of the transactions between the
           Grantee and its parent corporation because they are considered to be
           related-parties which may enter into less-than-arms-length transactions.
           OMB Circular A-122 Attachment A, (3), Reasonable costs, requires
           additional considerations when transactions are with related-parties. In
           addition, the allowability of rent costs are limited to a depreciation or use
           allowance by Attachment B, Selected Item of Cost No. 42, Rental Costs.
           Selected Item of Cost No. 9, requires the computation of the allowable
           depreciation or use allowance to exclude the cost of the land. The Grantee
           and the parent corporation entered into a 3-year contractual agreement
           whereby the parent corporation provides the Grantee general management
           services for $2,000 per month and rents the property to the Grantee for
           $1,600 per month. We found the following.




USDA-OIG-A/34004-04-Hy                                                         Page 19
           •   The $2,000 per month cost of management services; including
               accounting, purchasing, audit, reception, payments to suppliers,
               equipment use, personnel, and payroll which were performed at the
               parent corporation offices appeared reasonable based upon Rural
               Development's RRH management cost information. However, we
               found that the parent corporation also billed, and the Grantee paid,
               additional management service costs that should have been covered
               by the $2,000 monthly fee. The Grantee was billed and paid $10,737
               for equipment used by the staff performing the off-site management
               services, $900 for audit services, and $45,600 for the salary of the staff
               performing the off-site management services. We concluded these
               additional costs totaling $57,237 were covered in the monthly
               management fee and are unallowable costs.

           •   The monthly rent cost of $1,600 was not allowable. According to OMB
               Circular A-122, rental costs under less-than-arms-length leases are
               allowable only up to the amount that would be allowed had title to the
               property vested in the organization. Therefore, only a depreciation or
               use allowance would be allowable. We consider the $30,400 paid from
               July 1996 through November 1998 to be unallowable costs.

           Our review of disbursements totaling $833,904 disclosed the Grantee
           disbursed $89,787 for unallowable costs (items one, two, and seven)
           $19,774 for costs that were not adequately documented (items four, five,
           and six), $29,035 for the entire cost of three transactions that should have
           been allocated among the benefiting programs (item three), and $30,400
           for rental costs that are not allowable because the payments went to a
           related-party (item eight).


    RECOMMENDATION NO. 7



           If the grant is not recovered in total under Recommendation No. 4, recover
           the unallowable costs of $89,787 from the Grantee.

           RBS Response

           The RBS agrees that the Grantee is located in an ineligible area of Puerto
           Rico. Therefore, the entire $850,000, plus accrued interest, represents
           unauthorized assistance. The Grantee will be serviced under                    7
           CFR, § 1951, subpart O, Unauthorized Assistance. This regulation allows
           for collection efforts to be initiated once a grantee is given an opportunity to
           refute the RBS findings and provide information to support its position.




USDA-OIG-A/34004-04-Hy                                                            Page 20
           OIG Position

           We recognized in this recommendation that the potential exists for recovery
           of the entire grant under the RBS cited regulation. However, it is possible
           that the RBS could determine the entire grant cannot be recovered because
           the RBS, not the Grantee, failed to follow the rural area eligibility regulations.
            Therefore, we believe these unallowable costs incurred because the
           Grantee failed to follow regulations, should be recovered if the entire
           $850,000 in grant funds are determined not recoverable.                       Our
           recommendation remains as presented.


    RECOMMENDATION NO. 8



           If the grant is not recovered in total under Recommendation No. 4, recover
           the unsupported costs of $19,774 from the Grantee.

           RBS Response

           The Grantee will be required to provide support documentation for these
           costs along with a written explanation, in English, to the Puerto Rico SO to
           determine if the $19,774, should be recovered in the event the entire grant of
           $850,000, is not recoverable.

           OIG Position

           Management decision can be reached when a targeted completion date is
           provided for the proposed actions and/or a bill for collection is issued.


    RECOMMENDATION NO. 9



           If the grant is not recovered in total under Recommendation No. 4, advise
           the Grantee that the costs for the vans and other services totaling $29,035
           are not allowable, allow the Grantee to allocate the costs among the
           benefiting programs, and recover the difference between the amount
           disbursed and the amount determined to be allowable under the grant.

           RBS Response

           The Grantee will be required to provide support documentation for these
           costs along with a written explanation, in English, to the Puerto Rico SO to
           determine if the $29,035, should be recovered in the event the entire grant of
           $850,000 is not recoverable.



USDA-OIG-A/34004-04-Hy                                                             Page 21
           OIG Position

           Management decision can be reached when a targeted completion date is
           provided for the proposed actions and/or a bill for collection is issued.


   RECOMMENDATION NO. 10



           If the grant is not recovered in total under Recommendation No. 4, advise
           the Grantee that the rent costs totaling $30,400, are not allowable; allow the
           Grantee to determine the amount of depreciation or use allowance that can
           be claimed for using facilities of its parent company; and recover the
           amount disbursed for rent payments in excess of the allowance.

           RBS Response

           The Grantee will be required to provide support documentation for these
           costs along with a written explanation, in English, to the Puerto Rico SO to
           determine if the $30,400, should be recovered in the event the entire grant of
           $850,000 is not recoverable.

           OIG Position

           Management decision can be reached when a targeted completion date is
           provided for the proposed actions and/or a bill for collection is issued.


   RECOMMENDATION NO. 11



           Provide training to SO staff on how to properly manage grant funds.

           RBS Response

           Post reviews will be conducted in the NO on each RBEG made by the Puerto
           Rico SO since August 1999 through the end of the FY 2000, with additional
           training to be provided on grant management at the upcoming August 2000
           training session for all SO employees.

           OIG Position

           On the basis of the response, management decision has been reached.




USDA-OIG-A/34004-04-Hy                                                           Page 22
EXHIBIT A – SUMMARY OF MONETARY RESULTS




       Recommendation
           No.        Description                    Amount           Category

           4           Questioned Grants             $1,451,260 Questioned Cost
                                                                No Recovery

           7           Unallowable costs               $89,787 Questioned Cost
                                                               Recovery
                                                               Recommended

           8           Unsupported Costs               $19,774 Questioned Cost
                                                               Recovery
                                                               Recommended

           9           Improper cost allocation        $ 29,035 Questioned Cost
                       between grant and non-grant              Recovery
                       activities                               Recommended


           10          Unsupported rental costs        $ 30,400 Questioned Cost
                                                                Recovery
                                                                Recommended




USDA-OIG-A/34004-04-Hy                                                     Page 23
EXHIBIT B – LAND AREA RECLASSIFICATION
                                                                                                                Page 1 of 3
                                           LAND AREA RECLASSIFICATION

Following are the 9 urbanized areas, the municipios within each, the square miles of urbanized areas, the square miles of potential
urbanizing areas, and the square miles of potentially rural areas.

Note: Puerto Rico contains 3,426.5 square miles and has a total population of 3,522,037 according to the 1990 census data.

                          Land Area      Land Area       Land Area     Land Area     Land Area     Land Area
                           Square         Square          Square         Square        Square        Square
                            Miles          Miles           Miles       Miles with     Miles RD        Miles         Population
                            Total        Urbanized       Urbanizing    Population     Classif.        OIG              Per
                             Per            Per             Per        Less than      as Non-       Believes         Census
                           Census         Census            OIG        100 - Rural      'Rural     'Non-rural         Data
     Name of Area             A              B               C              =                        (B+C)
1 Aguadilla urban area      117.8          46.4             68.6          2.8                                         99,936

  Aguada municipio            30.9           16.9           11.2           2.7           0.0          28.1
  Aguadilla municipio         36.6           22.9           13.5           0.1           0.0          36.4
  Moca municipio              50.3           6.6            43.7           0.0           0.0          50.3

2 Arecibo urban area         214.5           37.7          157.8          19.0                                        88,967

  Arecibo municipio          126.3           16.2           91.1          19.0           0.0          107.3
  Camuy municipio            46.4             7.4           39.0          0.0            0.0          46.4
  Hatillo municipio          41.8            14.1           27.7          0.0            0.0          41.8

3 Caguas urban area          208.3           57.5          149.9           1.0                                       190,922

  Aguas Buenas
  Municipio                   30.6           0.3            30.3           0.0          0.0           30.6
  Caguas Municipio            58.7           28.6           30.1           0.0          12.7          58.7
  Canovanas Municipio         7.4            0.3            7.1            0.0          0.0           7.4
  Cidra Municipio             2.5            2.5            0.0            0.0          0.0           2.5
  Gurabo Municipio            27.8           5.3            21.5           1.0          0.0           26.8
  Juncos Municipio            26.6           11.4           15.2           0.0          0.0           26.6
  Las Piedras Municipio       1.5            0.3            1.2            0.0          0.0           1.5
  San Lorenzo Municipio       53.2           8.7            44.5           0.0          0.0           53.2

4 Cayey urban area           116.8           15.1          101.7           0.0                                        53,945
  Aibonito Municipio         31.3            0.8           30.5            0.0           0.0          31.3
  Cayey Municipio            51.9            7.1           44.8            0.0           0.0          51.9
  Cidra Municipio            33.6            7.2           26.4            0.0           0.0          33.6




USDA-OIG-A/34004-04-Hy                                                                                               Page 24
                                                                                                      Page 2 of 3

                                       LAND AREA RECLASSIFICATION

                          Land Area   Land Area   Land Area    Land Area     Land Area   Land Area
                           Square      Square      Square        Square        Square      Square
                            Miles       Miles       Miles      Miles with     Miles RD      Miles       Population
                            Total     Urbanized   Urbanizing   Population     Classif.      OIG            Per
                             Per         Per         Per       Less than      as Non-     Believes       Census
                           Census      Census        OIG       100 - Rural      'Rural   'Non-rural       Data
     Name of Area             A           B           C             =                      (B+C)

5 Humacao urban area        184.2       22.4        151.0         10.7                                   57,144

  Humacao Municipio         44.8        15.0        19.1          10.7          0.0        34.1
  Las Piedras Municipio     32.4        6.6         25.8          0.0           0.0        32.4
  Naguabo Municipio         51.7        0.8         50.9          0.0           0.0        51.7
  Yabucoa Municipio         55.3        0.1         55.2          0.0           0.0        55.3

6 Mayaguez Urban area       253.1       36.5        203.5         13.1                                   110,904

  Anasco Municipio          39.3        0.9         34.5          3.9          0.0         35.4
  Cabo Rojo Municipio       70.4        0.7         69.7          0.0          0.0         70.4
  Hormigueros Municipio     11.3        6.3         1.0           4.0          0.0         7.3
  Mayaguez Municipio        77.6        27.9        44.5          5.2          21.2        72.4
  San German Municipio      54.5        0.7         53.8          0.0          0.0         54.5

7 Ponce Urban area          160.7       41.9        97.0          21.8                                   190,079

  Penuelas Municipio        44.6        3.7         36.1          4.8          0.0         39.8
  Ponce Municipio           116.1       38.2        60.9          17.0         29.0        99.1

8 San Juan Urban Area       379.0       197.5       150.9         30.6                                  1,221,086

  Bayamon Municipio         44.4        33.3        11.1          0.0          28.2        44.4
  Canovanas Municipio       25.5        4.8         20.7          0.0          0.0         25.5
  Carolina Municipio        45.3        30.6        10.5          4.2          23.7        41.1
  Catano Municipio          4.8         4.8          0.0          0.0          4.8         4.8
  Dorado Municipio          5.4         2.7          0.1          2.6          0.0         2.8
  Guaynabo Municipio        27.1        21.8         5.3          0.0          17.1        27.1
  Loiza Municipio           19.4        4.5          7.3          7.6          0.0         11.8
  Naranjito Municipio       27.2        6.7         20.5          0.0          0.0         27.2
  Rio Grande Municipio      60.7        3.9         45.9          10.9         0.0         49.8
  San Juan Municipio        47.8        44.2         3.6          0.0          39.5        47.8
  Toa Alta Municipio        27.4        12.7        14.7          0.0          0.0         27.4
  Toa Baja Municipio        23.2        13.9         4.0          5.3          0.0         17.9




USDA-OIG-A/34004-04-Hy                                                                                  Page 25
                                                                                                        Page 3 of 3

                                         LAND AREA RECLASSIFICATION

                               Land
                               Area     Land Area   Land Area    Land Area     Land Area   Land Area
                              Square     Square      Square        Square        Square      Square
                               Miles      Miles       Miles      Miles with     Miles RD      Miles       Population
                               Total    Urbanized   Urbanizing   Population     Classif.      OIG            Per
                                Per        Per         Per       Less than      as Non-     Believes       Census
                              Census     Census        OIG       100 - Rural      'Rural   'Non-rural       Data
         Name of Area            A          B           C             =                      (B+C)
  Trujillo Alto Municipio      20.8       13.6         7.2          0.0           0.0         20.8

9 Vega Baja-Manati            136.8      37.0 a        93.8         5.9                                    112,272
  Urban Area

  Dorado Municipio             17.9       4.0          13.9         0.0           0.0         17.9
  Manati Municipio             45.2       7.4          34.0         3.8           0.0         41.4
  Vega Alta Municipio          27.8       11.4         16.4         0.0           0.0         27.8
  Vega Baja Municipio          45.9       14.3         29.5         2.1           0.0         43.8

  Total of 9 urban areas      1,771.2     455.0      1,174.2       104.9         176.2      1,666.1       2,125,255

  Percent Total Puerto Rico   0.5169     0.1328       0.3427       0.0306       0.0514      0.4862          0.6034

  a/ This is the total from the census data. It does not agree with the total of the individual municipios due to
      rounding.




USDA-OIG-A/34004-04-Hy                                                                                     Page 26
EXHIBIT C – AGENCY RESPONSES

                               Page 1 of 10




USDA-OIG-A/34004-04-Hy             Page 27
                         Page 2 of 10




USDA-OIG-A/34004-04-Hy       Page 28
                         Page 3 of 10




USDA-OIG-A/34004-04-Hy       Page 29
                         Page 4 of 10




USDA-OIG-A/34004-04-Hy       Page 30
                         Page 5 of 10




USDA-OIG-A/34004-04-Hy       Page 31
                         Page 6 of 10




USDA-OIG-A/34004-04-Hy       Page 32
                         Page 7 of 10




USDA-OIG-A/34004-04-Hy       Page 33
                         Page 8 of 10




USDA-OIG-A/34004-04-Hy       Page 34
                         Page 9 of 10




USDA-OIG-A/34004-04-Hy       Page 35
                         Page 10 of 10




USDA-OIG-A/34004-04-Hy        Page 36
                                                    ABBREVIATIONS




7 CFR
  Title 7, Code of Federal Regulations.............................................................................................. i

FY
  fiscal year..................................................................................................................................... ii

NO
 Rural Development National Office...............................................................................................iii

OGC
  Office of the General Counsel.......................................................................................................4
OIG
  Office of Inspector General..........................................................................................................iii
OMB
  Office of Management and Budget................................................................................................3

RBEG
  Rural Business Enterprise Grant..................................................................................................... i
RBS
  Rural Business-Cooperative Service............................................................................................ iv
RRH
  Rural Rental Housing.................................................................................................................... ii

SO
  State Office................................................................................................................................... i

U.S.C.
  United States Code......................................................................................................................1
USDA
  U.S. Department of Agriculture ....................................................................................................iii




USDA-OIG-A/34004-04-Hy                                                                                                                 Page 37
